U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rico Blackwell v. United States of America,
S.Ct. No. 20-8016

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 10,
2021, and placed on the docket on May 13, 2021. The government’s response is due on June 14,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8016
BLACKWELL, RICO
USA

WHITMAN MATTHEW DODGE
FEDERAL DEFENDER PROGRAM INC.
101 MARIETTA STREET N.W.
STE. 1500
ATLANTA, GA 30303
4046887530

